WHITE & WHITE

524 EAST 20TH STREET, # 6D

ATTORNEYS AT LAW

NEW YORK, NEW YORK 10009

DIARMUID WHITE
diarmuid@whiwhi.com
----BRENDAN WHITE
brendan@whiwhi.com

TEL: (646) 303-0267

October 1, 2020
Supreme Court of the United States
U.S. Supreme Court Bldg.
1 First Street, N. E.
Washington, D. C. 20543
Attn: Clerk of the Court
Re: Patrick Muraca v. United States of America,
Petition for Writ of Certiorari
Dear Clerk of the Court:
I represent the petitioner Petitioner Patrick Muraca in the
above Petition for a Writ of Certiorari. I previously represented
Petitioner pursuant to the Criminal Justice Act in the United
States Court of Appeals for The Second Circuit. The Appeal was
denied by Summary Order dated May 7, 2020.
No Petition for
Rehearing was filed.
Pursuant to the Court’s Order of April 15, 2020, please find
enclosed one copy each of a petition for certiorari and in forma
pauperis application, as well as a certificate of service
indicating service today by mail on the Office of the Solicitor
General.
The above-referenced documents are also being filed
electronically.
Please let me know if the Court requires any additional
information. Thank you for your courtesy and cooperation.
Very truly yours,
Brendan White
Attorney for Petitioner
Encl.
Cc: Office of the Solicitor General

